                                                                   February 1, 2005

                                                                   E-EV-MOA-0010-2005


The Honorable Mike DeWine
Chairman
Subcommittee on the District of Columbia
Committee on Appropriations
United States Senate
Washington, DC 20510-6025

Dear Mr. Chairman:

       This letter communicates our findings on the promptness of payments the
Department of the Interior made to the District of Columbia Water and Sewer Authority
(DC WASA) for water and sewer services billed during the first quarter (October 1
through December 31) of fiscal year 2005.

       The National Park Service (NPS) pays DC WASA for services to the majority of
the parks and NPS facilities within the District of Columbia by electronic transfer of
funds through the U.S. Department of the Treasury. Water and sewer services provided
along the George Washington Memorial Parkway and within the C&O Canal National
Historical Park are paid individually by either check or third party draft directly to DC
WASA.

        NPS was timely in its first quarter electronic fund transfer payment of $227,944
for the largest account. The parties responsible for the other locations’ payments had not
received first quarter bills at the time of our inquiry. In our next quarterly report, we will
include information as to whether these bills have been received and paid in a timely
manner.

         We also found that fourth quarter bills for FY 2004 for the George Washington
Memorial Parkway and the C&O Canal National Historical Park, which were received in
the first quarter of FY 2005, were paid in a timely manner.

       If you should have any questions regarding this information, please feel free to
contact me at (202) 208-5745 or Mr. Roy Kime, Attorney Advisor, Office of Inspector
General, at (202) 208-6232.

                                               Sincerely,

                                               (Signed)

                                               Earl E. Devaney
                                               Inspector General
                                                               February 1, 2005

                                                               E-EV-MOA-0010-2005



The Honorable Mary L. Landrieu
Ranking Minority Member
Subcommittee on the District of Columbia
Committee on Appropriations
United States Senate
Washington, DC 20510-6025

Dear Senator Landrieu:

       This letter communicates our findings on the promptness of payments the
Department of the Interior made to the District of Columbia Water and Sewer Authority
(DC WASA) for water and sewer services billed during the first quarter (October 1
through December 31) of fiscal year 2005.

       The National Park Service (NPS) pays DC WASA for services to the majority of
the parks and NPS facilities within the District of Columbia by electronic transfer of
funds through the U.S. Department of the Treasury. Water and sewer services provided
along the George Washington Memorial Parkway and within the C&O Canal National
Historical Park are paid individually by either check or third party draft directly to DC
WASA.

        NPS was timely in its first quarter electronic fund transfer payment of $227,944
for the largest account. The parties responsible for the other locations’ payments had not
received first quarter bills at the time of our inquiry. In our next quarterly report, we will
include information as to whether these bills have been received and paid in a timely
manner.

          We also found that fourth quarter bills for FY 2004 for the George Washington
Memorial Parkway and the C&O Canal National Historical Park, which were received in
the first quarter of FY 2005, were paid in a timely manner.

       If you should have any questions regarding this information, please feel free to
contact me at (202) 208-5745 or Mr. Roy Kime, Attorney Advisor, Office of Inspector
General, at (202) 208-6232.

                                               Sincerely,

                                               (Signed)

                                               Earl E. Devaney
                                               Inspector General
                                                               February 1, 2005

                                                               E-EV-MOA-0002-2005



The Honorable Rodney Frelinghuysen
Chairman
Subcommittee on the District of Columbia
Committee on Appropriations
U.S. House of Representatives
Washington, DC 20515-6019

Dear Mr. Chairman:

       This letter communicates our findings on the promptness of payments the
Department of the Interior made to the District of Columbia Water and Sewer Authority
(DC WASA) for water and sewer services billed during the first quarter (October 1
through December 31) of fiscal year 2005.

       The National Park Service (NPS) pays DC WASA for services to the majority of
the parks and NPS facilities within the District of Columbia by electronic transfer of
funds through the U.S. Department of the Treasury. Water and sewer services provided
along the George Washington Memorial Parkway and within the C&O Canal National
Historical Park are paid individually by either check or third party draft directly to DC
WASA.

        NPS was timely in its first quarter electronic fund transfer payment of $227,944
for the largest account. The parties responsible for the other locations’ payments had not
received first quarter bills at the time of our inquiry. In our next quarterly report, we will
include information as to whether these bills have been received and paid in a timely
manner.

          We also found that fourth quarter bills for FY 2004 for the George Washington
Memorial Parkway and the C&O Canal National Historical Park, which were received in
the first quarter of FY 2005, were paid in a timely manner.

       If you should have any questions regarding this information, please feel free to
contact me at (202) 208-5745 or Mr. Roy Kime, Attorney Advisor, Office of Inspector
General, at (202) 208-6232.

                                               Sincerely,

                                               (Signed)

                                               Earl E. Devaney
                                               Inspector General
                                                               February 1, 2005

                                                               E-EV-MOA-0002-2005


The Honorable Chaka Fattah
Ranking Minority Member
Subcommittee on the District of Columbia
Committee on Appropriations
U.S. House of Representatives
Washington, DC 20515-6019

Dear Congressman Fattah:

       This letter communicates our findings on the promptness of payments the
Department of the Interior made to the District of Columbia Water and Sewer Authority
(DC WASA) for water and sewer services billed during the first quarter (October 1
through December 31) of fiscal year 2005.

       The National Park Service (NPS) pays DC WASA for services to the majority of
the parks and NPS facilities within the District of Columbia by electronic transfer of
funds through the U.S. Department of the Treasury. Water and sewer services provided
along the George Washington Memorial Parkway and within the C&O Canal National
Historical Park are paid individually by either check or third party draft directly to DC
WASA.

        NPS was timely in its first quarter electronic fund transfer payment of $227,944
for the largest account. The parties responsible for the other locations’ payments had not
received first quarter bills at the time of our inquiry. In our next quarterly report, we will
include information as to whether these bills have been received and paid in a timely
manner.

          We also found that fourth quarter bills for FY 2004 for the George Washington
Memorial Parkway and the C&O Canal National Historical Park, which were received in
the first quarter of FY 2005, were paid in a timely manner.

       If you should have any questions regarding this information, please feel free to
contact me at (202) 208-5745 or Mr. Roy Kime, Attorney Advisor, Office of Inspector
General, at (202) 208-6232.

                                               Sincerely,

                                               (Signed)

                                               Earl E. Devaney
                                               Inspector General
Cc.   OIG Subject/Reading
      IG Chron
      AIGA Chron
      Roy Kime-DXA
      OEMS Director-Patti Boyd
      Robert Romanyshyn
      Katie Balestra-CL
      Congressional File
      CTS 2002-C-00023
